No.20-1603
IN

rnn

$u0reme @ourt of tDe @nite! $tutes
SUSAN BENNETT,
Petitioner,

v

AMERICAN FEDERATION OF STATE, COUNTY, AND MUNICIPAL
EMPLOYEES, COUNCIL 31, AFL-CIO, ETAL.,
Respondents.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit

CERTIFICATE OF SERVICE
Undersigned counsel, a member of the Bar of this Court, certifies that all
parties required to be served have been served with the BRIEF IN OPPOSITION OF
RESPONDENTS AFSCME COUNCIL 31, AFSCME LOCAL 672, AND MOLINE.
COAL VALLEY SCHOOL DISTRICT NO. 40, in that three copies were served on
counsel of record for Petitioner and Respondents, this 27th day of September, 202'1,,
by overnight mail, postage prepaid addressed as follows:

Frank Henry Bieszczat
(Counsel of Record)
Office of the Illinois Attorney General
100 West Randolph Street, 12th Floor
Chicago, IL 60601
3r2.814.2234

Jeffrey Michael Schwab
(Counsel of Record)
Liberty Justice Center
208 South LaSalle Street, Suite 1690
Chicago, IL 60604
3L2.263.7668

KenesnLL
(

of Record)

Bnnouorr'& Kcsnn, .L.L.C.
805 15th Street N.W.
Suite 1000
Washington, DC 20005
202.842.2600
jkarabell@bre dhoff.com
Counsel for AFSCME Council 31 and,
AFSCME Local 672

